                              CLOSEOUT FOR M92070025




                                                    -   -
Indian or Alaskan Native" checked. When asked about this discrepancy the subject stated,
both orally and in writing, that he was not a Native American or an Alaskan Native. He
further asserted that prior to the submission-fo              he had ceased to provide any
racelethnic information, which was voluntary. He said that he did not know how the
erroneous information had been entered on the form submitted with-ht
proposal.

    Based on the subject's statements, and the lack of evidence to the contrary, this case is
closed without a finding of misconduct.




Staff Scientist, Oversight


Concurrence:



--
Donald E. Buzzelli
Senior Scientist, Office of Oversight                 Assistant Inspector General for Oversight




Montgomery K. Fisher
Assistant Counsel to the Inspector General


cc:     Assistant Inspector General for Oversight
        Inspector General
